          Review of Mainframe Access Controls at the Application Level

                     Program Accounts Receivable System

                      Report No. 04-09, September 9, 2004


                                    INTRODUCTION


This report presents the results of the Office of Inspector General’s (OIG) audit of the
effectiveness of access controls in ensuring security over the Program Accounts
Receivable (PAR) system, a component of the Railroad Retirement Board’s (RRB)
financial management application system.

Background

The RRB administers the retirement/survivor and unemployment/sickness insurance
benefit programs for railroad workers and their families under the Railroad Retirement
Act (RRA) and the Railroad Unemployment Insurance Act (RUIA). These programs
provide income protection during old age and in the event of disability, death, temporary
unemployment or sickness. The RRB paid out nearly $9 billion in benefits during fiscal
year (FY) 2003.

The RRB’s information system environment consists of two general support systems
and seven major application systems. The two general support systems are the data
processing system, which supports all mainframe computing activity, and the end-user
computing system, which supports the agency’s local and wide area networks. The
major application systems correspond to the RRB’s critical operational activities:
payment of RRA and RUIA benefits, maintenance of compensation and service records,
administration of Medicare entitlement, financial management, personnel/payroll, and
the RRB’s financial interchange with the Social Security Administration.

The agency’s Chief Information Officer, who is also the director of the Bureau of
Information Services, has overall responsibility for administration of both data
processing and end-user computing as well as in-house systems development. Within
the Bureau of Information Services, the Chief Security Officer has primary responsibility
for coordinating, evaluating and reporting on information security for the agency.

The PAR system is a mainframe application that supports debt recovery management
and reporting for the RRA and RUIA programs. Access to the mainframe environment
is password protected. The PAR system includes an additional system of security
functions that controls user accesses, document approval processing procedures and
logging features.

The Bureau of Fiscal Operations is the owner-of-record for the PAR system and has
responsibility for system administration. The system administrator maintains the
security settings within the PAR system, including the access privileges of new and
existing users. The PAR system is also used extensively by Office of Programs’
personnel which has responsibility for debt recognition and coordination of debt



                                             1

recovery and benefit payments. The RRB recognized approximately $90 million in new
program debt during FY 2003.

Information security is defined as protecting information and information systems from
unauthorized access, use, disclosure, disruption, modification or destruction in order to
provide integrity, confidentiality and availability. Access controls limit or detect access
to computer resources (data, programs, equipment, and facilities), thereby protecting
these resources against unauthorized modification, loss, and disclosure. Previous OIG
security evaluations cited the agency with material weaknesses due to significant
deficiencies in access controls in both the mainframe and end-user computing
environments and in the training provided to staff with significant security
responsibilities.

The Office of Management and Budget (OMB) has published guidance to assist Federal
managers in meeting the management control and computer security requirements of
the Computer Security Act of 1987, the Chief Financial Officers Act of 1990, and the
Clinger-Cohen Act of 1996. OMB Circular A-130, “Management of Federal Information
Resources,” Appendix III, dated November 30, 2000, establishes policy for the
management of Federal information resources and establishes a minimum set of
controls to be included in Federal automated information security programs.

This evaluation was conducted pursuant to the E-Government Act of 2002 (P.L. 107-
347), Title III, the Federal Information Security Management Act of 2002 (FISMA), which
requires annual Inspector General security evaluations.

Objective, Scope and Methodology

The objective of this evaluation was to assess the effectiveness of access controls in
limiting and detecting access to the PAR system. In order to accomplish our objective,
we
   •	 identified users of the PAR system as of December 2003 and documented their
      system privileges;
   •   obtained an understanding of the security configuration of the PAR system;
   •	 obtained an understanding of the policies and procedures through which system
      access is requested, authorized, granted and maintained;
   •	 obtained an understanding of the access re-authorization process through
      discussions with responsible management and staff, and reviews of supporting
      documentation as available; and
   •	 used statistical and non-statistical sampling to assess the effectiveness of
      controls in limiting access to the PAR system.

The details of the sampling methodology and results are presented in Appendix I to this
report.



                                             2

Our work was performed in accordance with generally accepted government auditing
standards as applicable to the objective. Fieldwork was conducted at RRB
headquarters in Chicago, Illinois during December 2003 through May 2004.


                                RESULTS OF REVIEW


Our audit tests disclosed that access controls are not adequate to ensure that PAR
system users are limited to the system privileges required for the performance of their
current job. In addition, we observed that PAR system features designed to ensure
accountability for changes to certain security settings have not been implemented, and
that the approval settings that control transaction processing and data entry are not
consistent across programs.

The details of our findings and recommendations follow. Management has agreed to
take the recommended corrective action. The full text of the responses of the Bureaus
of Information Services and Fiscal Operations are included in this report as appendices
II and III respectively.


Controls Are Not Effective in Limiting Access to Requirements of Position

The RRB’s existing control framework is not adequate to ensure that the access
privileges granted to users of the PAR system are limited to those required for
performance of their current job. Our conclusion is based on our evaluation of the
system privileges of 115 system users who can process transactions and/or data which
identified 28 users (24%) whose privileges exceeded the requirements of their current
position.

OMB Circular A-130 requires Federal agencies to limit a user’s access (to data files,
processing capability, or peripherals) or type of access (read, execute, delete) to the
minimum necessary to perform his or her job. Current RRB policy calls for periodic
system re-authorization reviews, an internal control process designed to identify
changes in user needs. During the re-authorization, supervisors have the opportunity to
review the current access privileges of their staff and identify any needed changes or
corrections.

The Bureau of Fiscal Operations, the system owner, is responsible for ensuring that re-
authorization reviews are scheduled and completed. The Bureau of Fiscal Operations
had not performed a re-authorization review for the PAR system since FY 1998; the
review scheduled for FY 2003 was not performed.

Although a re-authorization review was performed during FY 2004, the information
provided to supervisors did not include sufficient detail about the specific privileges
granted to individual employees to provide a basis for re-authorization. In most cases,
the information about staff privileges included only the name of a pre-defined security



                                           3

profile, but not the privileges associated with that profile. In some cases, the pre-
defined security profile had not been updated to modify user privileges when the
responsibilities of a job were changed.

During the period of our review, the agency’s Chief Security Officer, organizationally
within the Bureau of Information Services’ Risk Management Group, had not assumed
any direct oversight responsibility for this process. The lack of effective procedures and
controls to ensure that PAR system user accesses are limited to the requirements of
their current job weakens the overall structure of information security.

Recommendations

We recommend that:

   1. 	 The Bureau of Information Services implement a quality assurance program to
        ensure the timeliness and effectiveness of the re-authorization process for the
        PAR system. Such a process should include:

          •   a review for completeness of documentation;
          •   periodic testing to verify the effectiveness of the process;
          •	 issuance of an annual report communicating to the Chief Information
             Officer the results of the annual re-authorization process including an
             objective assessment of its overall effectiveness.

   2. 	 The Bureau of Fiscal Operations, as the system owner, coordinate a review of
        pre-defined security profiles to ensure that they properly reflect current job
        requirements.

Management’s Response

The Bureau of Information Services concurs with the recommendation for
implementation of a quality assurance program and state that they have already
submitted a personnel request to assign staff; however, due to limited resources, the
implementation of the program will be a multi-phased approach.

The Bureau of Fiscal Operations agrees that predefined security profiles for PAR
system users should reflect their current job requirements and will conduct a review of
PAR system security profiles.


Accountability for Changes to Core Security Not Ensured

Existing controls do not provide adequate accountability for changes to the PAR
systems’ core security tables. As a result, the system audit trail is not adequate to
identify individuals who initiated changes to security settings.



                                             4

OMB Circular A-130 requires Federal information systems provide accountability.
Accountability is defined as the existence of a record that permits the identification of an
individual who performed some specific activity so that responsibility for that activity
can be established. We would have expected to see an audit trail, in the form of
transaction logs, for changes to all core security tables to ensure accountability as well
as separation of duties between those system users who initiate/approve changes to
the logs and agency personnel who review them.

The PAR system has the capability to provide accountability through the creation of logs
that capture date, time and initiator of changes to security tables. However, this feature
has not been implemented for the tables that control security within the PAR system.

Only PAR system administrators can initiate changes to system security settings. The
system administrators also determine which changes will be logged. The need for
logging changes to core security tables was overlooked because of the small number of
individuals within the agency who can make such changes and the strong trust
relationship among them.

Recommendation

We recommend that:

    3. 	 the Chief Security Officer work with the system administrator to determine which
         security-related transactions should be logged, and identify the appropriate level
         of management to receive and review the logs.

Management’s Response

The Bureau of Information Services concurs with the recommendation and has agreed
that the Chief Security Officer will work with the PAR system administrator to determine
which security-related transactions should be logged and the appropriate level of
management to receive and review them.


Approvals Settings Are Inconsistent and May Be Ineffective

Document approval requirements have not been established consistently among like
transactions. It is not clear whether the approval privileges, as granted to system users,
are effective in achieving management’s internal control objectives.

Transactions, such as document approvals, should be executed in accordance with
management’s directives.1 However, we observed that like transactions do not always
require like approvals. For example, an RUIA debt can be established by any individual
authorized to enter billing documents, but an RRA billing document cannot be
1
  “Standards for Internal Control in the Federal Government,” General Accounting Office, November
1999, GAO/AIMD-00-21.3.1


                                                 5

processed without an additional level of approval. In addition, approval privileges have
been granted to many users so that most individuals who can enter an RRA billing
document can also add the required additional approval.

As a result, the security settings for individual transactions within the PAR system imply
a level of control which, in reality, has not been achieved.

Recommendation

We recommend that:

   4. 	 the Bureau of Fiscal Operations coordinate a review of the core security settings
        to ensure that the configuration of document approvals and award of approval
        privileges has properly implemented management’s intentions with respect to
        transaction processing.

Management’s Response

The Bureau of Fiscal Operations agrees with the recommendation and will conduct a
review of the core security settings.




                                            6

                                                                             Appendix I
                         Sampling Methodology and Results

We used statistical sampling to assess the effectiveness of controls designed to limit
PAR system user access to those privileges required in performance of their assigned
duties. Because more than 80% of PAR system users have been limited to “View Only”
access, we supplemented our sampling test with reviews of selected user groups who
are able to process transactions or enter data.

Audit Objective

The objective of our tests was to determine whether the agency has been effective in
restricting the privileges of users of the PAR system to only those required for their
current job.

Scope

We selected the sample from the population of 669 PAR System users as of December
2003.

Review Methodology

Acceptance Sample

We used statistical acceptance sampling using a 95% confidence and 5% tolerable
error which directed a sample size of 145. The threshold for acceptance was three
errors. Three exceptions would permit the auditors to infer, with 95% confidence, that
controls were adequate to ensure that no fewer than 95% of PAR system users had
only the access privileges required for performance of their current job.

Any user who had privileges that exceeded the requirements of their current position
was counted as an exception.

Non-Sampling Test

We reviewed the security profiles that granted privileges to the 115 system users who
can process transactions and/or input data. Based on an initial inspection of their
privileges and the auditor’s knowledge of agency operations, we identified selected
users whose privileges appeared to be at highest risk of exceeding the needs of their
current job. We asked the system users and/or their supervisors to determine whether
the privileges granted were required by the responsibilities of their current position.




                                            7

                                                                             Appendix I
                         Sampling Methodology and Results
Results of Review

Random Sample

Our evaluation of 145 randomly selected PAR user access profiles identified three users
whose access profile included privileges that were not required to perform current job
responsibilities.

Non-Sampling Test

Among the 115 individuals who had been granted privileges other than “View Only,” we
identified 28 (24%) who had system privileges that were not required by their current
position.

Audit Conclusion

Based on our evaluation, the RRB has not achieved an adequate level of compliance
with least privilege principles. Our tests disclosed a high percentage of users who have
the ability to enter and/or modify system data but who do not need that access.




                                           8

